              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




     Transportation Cost System Inputs
    into the Cost and Revenue Analysis
                   Report

                      Audit Report




                                        September 19, 2011

Report Number CRR-AR-11-004
                                                                        September 19, 2011

                                              Transportation Cost System Inputs into the
                                                  Cost and Revenue Analysis Report

                                                           Report Number CRR-AR-11-004




IMPACT ON:                                      WHAT THE OIG RECOMMENDED:
The U.S. Postal Service currently               We recommended that Finance
spends approximately $69 million                coordinate with other vice presidents to
annually for its manual data collection         form a coordination committee to
efforts to prepare the Cost and Revenue         develop system interfaces needed to
Analysis (CRA) report. This includes            provide automated data for CRA costing
about $3.9 million per year to collect          purposes; explore using census data for
data for the statistical models within the      air and highway transportation costing
Transportation Cost System. This report         purposes, and coordinate with the
explores alternate ways of preparing the        Postal Regulatory Commission
transportation cost component of the            regarding the use of census data
CRA using automated data, thus                  together with sample verification of
reducing manual data collection efforts.        mailpiece images for highway and air
                                                transportation cost attribution.
WHY THE OIG DID THE AUDIT:
Our objective was to determine whether          WHAT MANAGEMENT SAID:
portions of the CRA report could be             Management agreed with the
prepared more efficiently and effectively       recommendations but disagreed with
using automated data to reduce manual           the assessment of the state of
data collection. This self-initiated review     automated data and the cost savings
addresses financial risk.                       estimate.

WHAT THE OIG FOUND:                             AUDITORS’ COMMENT:
Additional planning, systems design,            We consider management’s comments
and system integration could enable the         responsive to the recommendations.
Postal Service to use more of the data          Regarding the state of automated data,
generated by operational systems for            we realize that Postal Service data
CRA cost attribution purposes.                  systems are evolving which is why it is
                                                crucial that product costing information
We estimate the Postal Service could            be included in these systems. Our cost
save about $980,000 in annual data              savings estimates differed from
collection costs. The Postal Service            management’s estimate because we
could make the hardware changes                 assumed a sharing of the costs by
needed with existing technology which           Operations and statistical sampling
would benefit both Operations and               since they share the benefits.
statistical sampling efforts.
                                                Link to review the entire report
September 19, 2011

MEMORANDUM FOR:            JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND
                           EXECUTIVE VICE PRESIDENT

                              E-Signed by Darrell E. Benjamin, Jr
                                VERIFY authenticity with e-Sign

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General, Revenue and Systems

SUBJECT:                   Audit Report – Transportation Cost System Inputs into the
                           Cost and Revenue Analysis Report
                           (Report Number CRR-AR-11-004)

This report presents the results of our audit of the Transportation Cost System Inputs
into the Cost and Revenue Analysis (CRA) Report (Project Number 11RG001CRR001).
Specifically, this report explores alternate ways of preparing the transportation cost
component of the CRA using automated data, thus reducing manual data collection
efforts

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Revenue, and Rates, or me at 703-248-2100.

Attachments

cc: Joseph Moeller
    Corporate Audit and Response Management
                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Transportation Cost Attribution ........................................................................................... 2

   Air Transportation Costs .................................................................................................. 2

   Highway Transportation Costs ........................................................................................ 3

Recommendations .............................................................................................................. 5

Management’s Comments .................................................................................................. 5

Evaluation of Management’s Comments ............................................................................ 6

Appendix A: Additional Information..................................................................................... 7

   Background ...................................................................................................................... 7

   Objective, Scope, and Methodology ............................................................................... 8

   Prior Audit Coverage ....................................................................................................... 8

Appendix B: Monetary Impact Calculation ......................................................................... 9

Appendix C: Management’s Comments ........................................................................... 10
Transportation Cost System Inputs                                                           CRR-AR-11-004
 Into the Cost and Revenue Analysis Report


Introduction

This report presents the results of our audit of Transportation Cost System (TRACS)
Inputs into the Cost and Revenue Analysis (CRA) report (Project Number
11RG001CRR001). Our objective was to determine whether portions of the CRA report
could be prepared more efficiently and effectively using automated data to reduce
manual data collection. This self-initiated review addresses financial risk. This report is
the first in a series of reports and addresses the transportation cost component of the
CRA. We also plan to issue reports addressing the Revenue, Pieces, and W eight
(RPW) System and the In-Office Cost System (IOCS) components of the CRA. See
Appendix A for additional information about this audit.

Each class or type of mail service is required to bear the direct and indirect costs
attributable to that class of service and the CRA report aids the U.S. Postal Service in
meeting this requirement. 1 Because the accounting systems do not accumulate financial
data by mail categories, statistical models and studies are used to attribute costs to the
mail classes in the CRA. The statistical systems use data gathered manually by data
collectors as well as principles and methodologies accepted by the Postal Regulatory
Commission (PRC) in preparing the CRA report. Approximately 900 full-time data
collectors and 1,100 part-time data collectors engage in ongoing data collection
activities. Manual data collection activities for various statistical systems cost
approximately $69 million annually.

The TRACS is one of the cost systems used to prepare the CRA. In fiscal year (FY)
2010, the Postal Service used TRACS to attribute $5.9 billion in air and highway
domestic transportation costs to mail classes and services. The statistical models used
in TRACS contain a sampling system to manually collect data on air and highway
transportation of mail. Data collectors expend approximately 82,530 hours annually to
collect data that includes transportation trip information, weight and volume of mail at
product level, and capacity utilization of trucks. The TRACS cost models generate a set
of ratios representing the proportions in which the transportation costs relate to various
mail products. These distribution ratios are then used to allocate transportation
expenses to the various mail products and services. 2

Conclusion

Additional planning, systems design, and system integration could enable the Postal
Service to use more of the data generated by operational systems for CRA cost
attribution purposes. There is an increasing amount of mail characteristic and piece
count data available in various Postal Service operational systems due to system

1
  The CRA report presents information such as the average unit cost of mail at product level, RPW information, and
information on services.
2
  Labor costs are allocated to mail products and services using distribution ratios obtained from IOCS, the City Carrier
Cost System, and the Rural Carrier Cost System. There are other attributable costs allocated to products and
services using other approved methods. These processes provide the total attributable costs relating to each product
and service. These costs, divided by the corresponding volume, provide the average unit cost of that product. If the
unit revenue is more than the average unit attributable cost, then that product covers its cost.
                                                           1
Transportation Cost System Inputs                                                       CRR-AR-11-004
 into the Cost and Revenue Analysis Report


improvements in mail acceptance and processing and delivery operations. For example,
the Intelligent Mail initiative systems, such as Surface Visibility, and the tracking
capabilities of mail processing equipment provide the ability to capture and use mail
volume, mail transit, and other data that could be used for transportation cost attribution
instead of relying on statistical testing and manual data collection efforts.

Postal Service Engineering has the technology required to capture mail images;
therefore, with appropriate modifications, management could adapt systems and
processing procedures to obtain mail product-level information and weights. This would
reduce the need for much of the manually gathered data currently required in TRACS to
attribute air and highway transportation costs.

Regulatory Reporting and Cost Analysis personnel within Finance have ongoing
consultations on an informal basis with other groups to explore using available census
data for cost attribution purposes. A more formalized approach, with involvement at the
vice president level, may assist in leveraging resources with available technological
capabilities in meeting Finance’s long-range data needs as operational systems mature.

We are continuing our audit to determine the extent to which mail images and other
available system data could be used to reduce the manually collected CRA data used in
the RPW and IOCS.

Transportation Cost Attribution

With appropriate modifications to existing systems, the Postal Service may be able to
use automated data to attribute a significant portion of air and highway transportation
costs to the various classes of mail, reducing manual CRA data collection efforts. For
example, enhanced interfacing of existing systems will enable the Postal Service to
obtain the weight and volume information necessary for air and highway transportation
cost attribution. In addition, examining statistical samples of images captured by
processing machines could provide additional product-level information. With the proper
system interfaces and expanded use of current scanning and mail tracking capabilities,
the Postal Service could produce the automated census data 3 necessary to attribute air
and highway transportation costs between processing facilities.

Air Transportation Costs

With additional system enhancements, the Postal Service could obtain most of the
census data necessary for air transportation cost attribution, such as gross weight of
mail transported on flight, weight of mail by class, and flight information from existing
systems. The Postal Service could obtain additional information needed at the mail
product level from limited statistical sampling of mailpiece images. For example, the
Enterprise Data Warehouse (EDW) receives census data on flights and weights of mail
transported on those flights.

3
 Census data involves using mail characteristics, such as mail type, weight, shape, and destination ZIP Code™,
captured from all mailpieces by automated systems, rather than relying on statistical sampling of mail.


                                                        2
Transportation Cost System Inputs                                                            CRR-AR-11-004
 into the Cost and Revenue Analysis Report


Weight of mail at the class level could be determined as follows:

   For First-Class™ letters and flats and Priority Mail® flats, weights by destination
    could be captured by letter and flat sorting machines with minor modifications. 4

   For First-Class and Priority parcels, weights by destination could be obtained from
    parcel sorting machines. 5

   Information on Priority mailpieces mailed under negotiated service agreements could
    be obtained from the PostalOne!® System.

   Weight of Express Mail, except for inbound international, could be obtained from the
    Product Tracking System (PTS).

The Web End-of-Run system linked to mail processing equipment provides piece count
information by destination at the class level. This information could be linked to flight
information through container assignment in the Surface Air Management System and
Surface Visibility, providing most of the required census data as these systems mature.

Under the current TRACS model, weight at the mail product level is required for the
distribution ratio calculation. As an alternative to obtaining weight at the product level,
the proportions in which mail products appear in the mailstream could be determined by
examining a statistical sample of mailpiece images. The census information obtained
from the systems, coupled with the product-level information obtained by examining
images, could be used to derive the ratios for air transportation cost attribution. 6

Highway Transportation Costs

The Postal Service could use census data to attribute costs associated with highway
transportation trips originating at mail processing facilities. 7 Implementation of the
scanning and tracking capabilities of the Surface Visibility application, when fully
deployed, will provide the critical data required for cost attribution using census data
rather than extensive manual data collection.

The Surface Visibility application contains information about transportation trips and the
class and weight of mail transported on each trip. If linked with the Web End-of-Run
application, Surface Visibility would be able to provide the volume of mail loaded into
containers and trucks. The volume information would be useful for determining the


4
  Engineering has developed different approaches to determine weight of the mail, weighing the tray at the sorting
machine being one of the least expensive of those methods.
5
  Within a reasonable tolerance, the Automated Package Processing System, together with the Small Parcel Bundle
Sorter, can capture the weight of approximately               of total parcel volume. The latter is being upgraded to add
the capability to capture weight.
6
  The Postal Service could use a special study to develop a methodology using this approach.
7
  Highway transportation trips include trips between processing facilities and trips within the geographical area
covered by individual processing facilities. Forty- nine percent of TRACS tests covered trips between processing
facilities.


                                                            3
Transportation Cost System Inputs                                                       CRR-AR-11-004
 into the Cost and Revenue Analysis Report


contents of containers and the space utilization of trucks required for developing the
ratios for cost attribution. Specifically:

   Using available scanning abilities and properly structuring the barcodes on
    containers, loose sacks, and other non-containerized items would provide the
    information required for calculating the distribution ratios.

   Correlating information about the contents of pallets transported on trucks with data
    available from PostalOne!. This information could replace estimates of space
    utilization of the pallets by classes and types of mail that are currently determined
    through visual inspection and measurement.

   Collecting product information for letters and flats by examining a statistical sample
    of scanned images, as in the case of air transportation costing. The PTS contains
    information about Express Mail together with complete scan information of mail
    transit. 8

The availability of census data also creates opportunities to generate the distribution
ratios using more direct approaches. For example, under the current model for highway
transportation cost allocation, data collectors must collect the weight of mailpieces,
which is then converted into volume in cubic feet to calculate the distribution ratios. The
available surface visibility data, including piece count and shape data, may eliminate the
need to weigh mailpieces to determine their volume.

The PRC has issued guidelines to use specific data collection and estimation methods
to produce the distribution ratios; therefore, management would have to coordinate
changes to these methods with the PRC. By clearly articulating their long-range data
collection needs and working with the PRC, Regulatory Reporting and Cost Analysis
personnel can assist in synergizing system modernization efforts underway within the
organization. This could lead to increased use of system-generated data for
transportation costing purposes and improved quality of cost attribution data, while
significantly reducing the cost necessary to collect this information. See Appendix A for
additional information.

The Postal Service can make the hardware and system modifications required to
implement these changes with existing technology and this would benefit both
Operations and statistical sampling efforts carried out for cost attribution purposes. We
estimate the Postal Service will save $9.8 million 9 in data collection costs over a 10-year
period, or about $980 thousand per year, by implementing these system enhancements.
See Appendix B for additional details regarding our cost-saving calculations.



8
  Sacks containing Express Mail are assigned Enhanced Distribution labels, which can be scanned and tracked by
Surface Visibility. Weight information is not currently available from PTS for inbound international Express Mail.
9
  Based on correspondence received from Finance after issuance of our draft report regarding the number of Delivery
Barcode Sorters, Linear Integrated Parcel Sorters, and Low-Cost Universal Sorters, we reduced the monetary impact
calculation in Appendix B to $9.8 million.


                                                         4
Transportation Cost System Inputs                                  CRR-AR-11-004
 into the Cost and Revenue Analysis Report


Recommendations

We recommend the chief financial officer and executive vice president direct the
manager, Regulatory Reporting and Cost Analysis, to:

1. Coordinate with applicable vice presidents to form a committee to develop system
   interfaces necessary to provide automated data for the Transportation Cost System
   for product costing purposes.

2. Explore using census data for air and highway transportation costing purposes.

3. Coordinate with the Postal Regulatory Commission to use census data together with
   sample verification of mailpiece images for highway and air transportation cost
   attribution, if using census data proves to be practical.

Management’s Comments

Management agreed with the recommendations. However, management disagreed with
the U.S. Postal Service Office of Inspector General’s (OIG) assessment of the state of
automated data and the estimate of cost savings.

Management agreed that voluminous data are automatically produced and that it can be
advantageous to use these data for costing. In fact, TRACS already uses certain
census data deemed sufficiently reliable for costing. However, there are significant
limitations with the data sources the OIG cited and management does not believe that
acceptable and applicable data are currently available for costing purposes.

Management provided examples of the data limitations, including the lack of specific
EDW information such as mailpiece-characteristic details regarding shape and rate
category, insufficient product level detail information from Web End-of Run data, and
nested scans that fully tracks trays and tubs from machines to wheeled containers and
from wheeled containers to trucks. Management also questioned whether the weight of
manually processed mail would be properly captured, whether weight measurements by
automated equipment would be sufficiently precise, and whether Product Tracking
System (PTS) information would provide the specific truck or flight for each mailpiece.
Management also expressed concern that mailers would not always provide accurate
data. Management stated that these limitations require significant and costly
improvements in operations procedures, image processing technology, and mailer
participation in order to use the data generated by Postal Service systems for product
costing purposes.

Finally, management stated that the net return on investment over 10 years may be
negative, ranging from negative $4 million to negative $31 million and there may be
other costs for systems integration and recurring maintenance. See Appendix C for
management’s comments in their entirety.




                                             5
Transportation Cost System Inputs                                      CRR-AR-11-004
 into the Cost and Revenue Analysis Report


Evaluation of Management’s Comments

The OIG considers management’s comments to be responsive to the recommendations
and management’s corrective actions should resolve the issues identified in the report.

We recognize that the current state of Postal Service systems does not permit
management to fully use the available data in the most effective way for product costing
purposes. However, the agency can overcome several of the limitations by suitably
modifying procedures in consultation with the PRC. For example, although EDW data
do not contain all product level information, sampling of mailpiece images can be used
to obtain the necessary product level information. Using census data for air
transportation costing will enable use of product-level total weights of mail loaded onto
air carriers and their corresponding volumes, rather than using weights of individual
mailpieces determined to the accuracy of one-tenth of an ounce. In addition, as highway
transportation costs are determined based on the square footage of mail products in the
truck and not on their weight, a factor other than weight can be used to determine the
square footage for costing calculations. Further, as the Postal Service reengineers PTS,
it can incorporate suitable requirements to meet product costing into the new system.
Lastly, additional coordinated system enhancements, including full implementation of
ongoing efforts, such as Surface Visibility and the Intelligent Mail technology, is required
for the Postal Service to enhance automated data for product costing purposes. The
Postal Service is expanding its Surface Visibility coverage and developing the ability to
track tray and container contents. This capability is evolving and it is crucial that the
Postal Service’s needs for product costing information be included in these systems.

Contrary to management’s statement that extensive participation from the already
stressed mailing industry is required to collect the necessary mailing data, implementing
adequate data input controls in the PostalOne! system could assist in ensuring the
availability of the necessary mailing data.

With regard to the estimate of cost savings, most of the proposed equipment upgrades
will benefit Postal Service operations and, accordingly, our estimates assumed a
sharing of the costs by those Postal Service organizations sharing the benefits. We
have lowered our estimate of cost savings based on correspondence received from
management after issuance of the draft report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                             6
Transportation Cost System Inputs                                                           CRR-AR-11-004
 into the Cost and Revenue Analysis Report


                                  Appendix A: Additional Information

Background

The Postal Service prepares the CRA report annually to determine whether it complied
with the statutory requirement that each class or type of mail service bear the direct and
indirect costs attributable to that class or service. The Postal Service’s accounting
systems do not accumulate financial data by categories of mail. The Postal Service
uses PRC-approved methods, which include the use of apportionment factors derived
from operational and statistical information sources, to prepare the CRA report.

Major statistical systems used in the CRA process include IOCS, the City Carrier Cost
System, and the Rural Carrier Cost system to attribute labor costs; TRACS to attribute
mail transportation costs; and the RPW System to estimate national revenue, volume,
and weight information. The number of statistical tests conducted in 2010 for selected
systems and the average time for conducting them are provided in Table 1.

                        Table 1. Data Collection Tests and Average Time

                                                                                             Average Time
                                                                        Number of              for a Test
     Statistical System                                                   Tests                 (hours)
     TRACS                                                                 17,635                  4.680
     IOCS                                                                 584,000                  0.470
     RPW System                                                           129,000                  6.167
     City Carrier Cost System                                               9,400                  3.500
     Rural Carrier Cost System                                              6,500                  5.500

Personnel in the Regulatory Reporting and Cost Analysis Office assemble and process
data collected in statistical tests to attribute labor and transportation costs to postal
products and services; and to estimate the national revenue, volume, and weight
information. The year-long data collection and pr ocessing activities involve running
several SAS programs.

In FY 2010, the Postal Service used TRACS to attribute $5.9 billion in transportation
costs to mail classes and services. For air transportation (except for daytime
transportation using FedEx 10) the Postal Service calculates distribution ratios on the
basis of the weight of the mail transported. For a particular mail product, the ratio of the
weight of that product to the total weight of mail transported constitutes the ratio in
which the cost will be allocated to that mail product. Both highway and rail transportation
use cubic foot-mile of mail transported to calculate distribution ratios.

The Postal Service depended on statistically collected data to compute the various
distribution ratios because of its prior inability to gather all the necessary census data
10
  Cubic feet of mail transported rather than the weight is used in the calculation for daytime transportation using
FedEx.


                                                           7
    Transportation Cost System Inputs                                     CRR-AR-11-004
     into the Cost and Revenue Analysis Report


    for cost attribution purposes; however, technological changes the Postal Service has
    implemented over the years provide the ability to produce voluminous data, including
    volume, weight, and origin-destination information. The PostalOne! system provides
    various information about commercial mail. Intelligent Mail technology provides visibility
    of mail from induction to final delivery. Mail processing equipment currently in use and
    planned for deployment is able to capture volume and, in some cases, weight
    information. Mail processing equipment also has the ability to capture images of
    mailpieces. The Postal Service currently uses limited census data in the CRA process,
    but the capability to significantly increase the use of census data and minimize manual
    data collection exists.

    Objective, Scope, and Methodology

    We conducted this performance audit from October 2010 through September 2011 in
    accordance with generally accepted government auditing standards and included such
    tests of internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management on August 4, 2011, and included their
    comments where appropriate.

    We evaluated business processes, the availability of system-generated data, and
    potential enhancements to systems and processes. We did not base our conclusions on
    the analysis results of computer-generated data, and therefore, did not evaluate the
    reliability of any such data.

    Prior Audit Coverage

                                           Final
                     Report               Report        Monetary
Report Title         Number                Date          Impact          Report Results
Cost and         CRR-AR-10-003         07/27/2010         None     We determined the Postal
Revenue                                                            Service needed to establish
Analysis                                                           proper access controls for its
Reporting                                                          shared network drive. Also,
Model                                                              the report stated the Postal
                                                                   Service could enhance
                                                                   controls by improving Cost
                                                                   and Revenue Analysis
                                                                   process documentation.
                                                                   Management concurred with
                                                                   the recommendations.




                                                    8
Transportation Cost System Inputs                                                       CRR-AR-11-004
 into the Cost and Revenue Analysis Report


                            Appendix B: Monetary Impact Calculation

The Postal Service could achieve cost savings and increased accuracy in its cost
attribution by using automated data and reducing manual data collection. As discussed
previously, with some upgrades to existing systems, management could use automated
data for attributing air transportation costs and highway transportation costs for trips
originating at processing facilities. Management estimated the equipment upgrade cost
will be between $3,000 and $5,000 per sorter.

These system upgrades — such as implementing weighing capabilities on processing
equipment and linking systems — would be beneficial in reducing manual data
collection efforts supporting other statistical systems, such as the RPW System and the
carrier cost systems. Assigning half of the equipment upgrade costs to other Operations
initiatives and statistical sampling systems would result in monetary impact ranging from
$9.8 to $12.7 million over a 10-year period. This represents funds which could be put to
better use.

              Finding                            Impact Category                          Amount
          Transportation
                                           Funds Put to Better Use 11                   $9,799,206
          Cost Attribution




11
  This term is synonymous with the term ‘costs avoided.’ The monetary impact represents the net present value of
cash flows for 10 years discounted at the Postal Service’s current borrowing rate of 3.75 percent.


                                                        9
Transportation Cost System Inputs                              CRR-AR-11-004
 into the Cost and Revenue Analysis Report


                           Appendix C: Management’s Comments




                                             10
Transportation Cost System Inputs                 CRR-AR-11-004
 into the Cost and Revenue Analysis Report




                                             11
Transportation Cost System Inputs                 CRR-AR-11-004
 into the Cost and Revenue Analysis Report




                                             12
Transportation Cost System Inputs                 CRR-AR-11-004
 into the Cost and Revenue Analysis Report




                                             13
Transportation Cost System Inputs                 CRR-AR-11-004
 into the Cost and Revenue Analysis Report




                                             14
Transportation Cost System Inputs                 CRR-AR-11-004
 into the Cost and Revenue Analysis Report




                                             15
Transportation Cost System Inputs                 CRR-AR-11-004
 into the Cost and Revenue Analysis Report




                                             16
